No. 19-67

IN THE

Supreme Court of the Anited States

UNITED STATES OF AMERICA,
Petitioner,
v.
EVELYN SINENENG-SMITH,
Respondent.

CERTIFICATE OF SERVICE

I, Elliott Schulder, a member of the Bar of this Court, hereby certify that on
January 22, 2020, I caused three copies of the Brief of the National Association of
Criminal Defense Lawyers and the National Association of Federal Defenders as
Amici Curiae in Support of Respondent in the above-entitled case to be served to the
below parties. I certify that on January 28, 2020, I caused three corrected copies of

the Brief to be served by Federal Express for overnight delivery to the below parties:

Noel J. Francisco Mark Fleming

Office of the Solicitor General Wilmer Cutler Pickering
Room 5616 Hale and Dorr LLP

U.S. Department of Justice 60 State Street

950 Pennsylvania Ave., NW Boston, MA 02109
Washington, DC 20530 (617) 526 6000

(202) 514 2203 mark.fleming@wilmerhale.com
Counsel for Petitioner Counsel for Respondent
I further certify that all parties required to be served have been served.

Ceo Hotuce he

Elliott Schulder
COVINGTON & BURLING LLP
One CityCenter

850 Tenth Street, NW
Washington, DC 20001
eschulder@cov.com

(202) 662-6000
